           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  ADMINISTRATIVE COSTS CLAIMED
    BY THE ILLINOIS DISABILITY
     DETERMINATION SERVICES


      May 2007   A-05-06-16118




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      May 22, 2007                                                              Refer To:

To:        James F. Martin
           Regional Commissioner
            Chicago

From:      Inspector General

Subject:   Administrative Costs Claimed by the Illinois Disability Determination Services
           (A-05-06-16118)


           OBJECTIVE

           Our objectives were to evaluate the Illinois Disability Determination Services (IL-DDS)
           internal controls over the accounting and reporting of administrative costs, determine
           whether costs claimed by the IL-DDS were allowable and properly allocated and funds
           were properly drawn, and assess limited areas of the general security control
           environment.

           BACKGROUND

           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies
           for the development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by Disability Determination
           Services (DDS) in each State, Puerto Rico and the District of Columbia. Such
           determinations are required to be performed in accordance with Federal law and
           underlying regulations. 1 In carrying out its obligation, each DDS is responsible for
           determining claimants’ disabilities and ensuring that adequate evidence is available to
           support its determinations. To assist in making proper disability determinations, each



           1
               42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - James F. Martin
DDS is authorized to purchase medical examinations, X-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
(ASAP) system to pay for program expenditures. Funds drawn down must comply with
                   2
Federal regulations and intergovernmental agreements entered into by Treasury and
States under the Cash Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with the Office
of Management and Budget’s Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the fiscal year (FY), each DDS is
required to submit a State Agency Report of Obligations for SSA Disability Programs
(SSA-4513) to account for program disbursements and unliquidated obligations. 4 The
SSA-4513 reports expenditures and unliquidated obligations for personnel service
                                                                        5
costs, medical costs, indirect costs, and all other nonpersonnel costs.

The Illinois Division of Rehabilitation Services is the IL-DDS’ parent agency. The
IL-DDS is located in Springfield, Illinois.

RESULTS OF REVIEW

Generally, the IL-DDS had effective controls over the accounting and reporting of
administrative costs and the costs it claimed during our audit were allowable and
properly allocated. In addition, we found IL-DDS’ general security controls were
generally effective. However, improvements are needed in the areas of cash
management and occupancy.

CASH MANAGEMENT

As of September 30, 2006, excess funding authorization existed in the IL-DDS’
FY 2004 and 2005 ASAP accounts in the amounts of $319,996 and $487,855,
respectively. SSA establishes the IL-DDS’ funding authority for each account within the
ASAP system. Funds drawn through the ASAP system are restricted solely for program

2
    31 C.F.R. § 205.1 et seq.
3
 Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058, in part amending
31 U.S.C. §§ 3335, 6501 and 6503 (1990).
4
  SSA, Program Operations Manual System (POMS), DI 39506.201 and 202. POMS, DI 39506.200 B.4
provides, in part, that “Unliquidated obligations represent obligations for which payment has not yet been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”
5
    SSA, POMS, DI 39506.202.
Page 3 - James F. Martin
use and any unused funds are required to be returned to Treasury. 6 SSA should
reduce DDS funding authorizations when they are no longer needed to make disability
determinations. Rescinding excess funding authorization decreases the risk of funds
being spent on expenditures not related to the proper FY.

During the course of our audit, we informed the Chicago SSA Regional Office (RO) of
the excess funding authorization. The RO subsequently reduced the IL-DDS’ funding
authority to the appropriate amount. The RO should monitor funding authorization to
ensure it is reduced when the funds are no longer needed to make disability
determinations.

OCCUPANCY
                                                                           7
The IL-DDS charged costs to SSA totaling $147,156 for unoccupied space. The
IL-DDS has not occupied the space since January 2006 when personnel were moved to
another office location. SSA policy states that, "Payment will be made only for periods
of occupancy unless advance approval is received from the Regional Office (RO)." 8
While the IL-DDS did not specifically request advance approval from the Chicago RO to
pay rent on the unoccupied space, the RO was aware of the payments.

According to the IL-DDS, the lease on the unoccupied space is shared with another
State agency. Furthermore, the lease cannot be terminated until the other State
agency vacates the space. As such, IL-DDS continues to pay for the unoccupied space
and charge the costs to SSA. The IL-DDS informed us that, in December 2006, actions
were initiated to relocate the other State agency to new space and it hopes the action
will be completed within 3 months. The RO should work with the IL-DDS to ensure the
lease on the unoccupied space is expeditiously terminated.

CONCLUSION AND RECOMMENDATIONS
Generally, the IL-DDS had effective controls over the accounting and reporting of
administrative costs and the costs it claimed during our audit were allowable and
properly allocated. In addition, we found IL-DDS’ general security controls were
generally effective. However, improvements are needed in the areas of cash
management and occupancy.




6
    42 U.S.C. § 421 (f).
7
 Calculated by multiplying the monthly lease expense of $12,263, by the number of months lapsed from
February 2006 to January 2007, inclusive. Based on comments received from the Chicago Regional
Office on our draft report (see Appendix C), SSA will continue to pay the costs for the unoccupied space
until June 30, 2007. Therefore, SSA will have paid space costs totaling $208,471 for space that was not
occupied by the IL-DDS (February 2006 through June 2007).
8
    SSA, POMS, DI 39527.005 B.3.
Page 4 - James F. Martin
We recommend the SSA Regional Commissioner:

   1. Monitor funding authorization to ensure it is reduced when the funds are no
      longer needed to make disability determinations.

   2. Work with the IL-DDS to ensure that the lease on the unoccupied space is
      expeditiously terminated.

AGENCY COMMENTS

In commenting on our draft report, SSA and the IL-DDS agreed with our
recommendations. See Appendices C and D respectively, for the full text of SSA’s and
IL-DDS’ comments.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – State Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
Act        Social Security Act
ASAP       Automated Standard Application for Payments
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
DI         Disability Insurance
FY         Fiscal Year
GAO        Government Accountability Office
IL-DDS     Illinois Disability Determination Service
IL-DRS     Illinois Division of Rehabilitation Services
POMS       Program Operations Manual System
Pub. L.    Public Law
RO         Regional Office
SSA        Social Security Administration
SSA 4513   State Agency Report of Obligations for SSA Disability Programs
SSI        Supplemental Security Income
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                          Appendix B

Scope and Methodology
SCOPE
To achieve our objective, we:

 •   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
     Security Administration’s (SSA) Program Operations Manual System and other
     criteria relevant to administrative costs claimed by the Illinois Disability
     Determination Services (IL-DDS), and the draw down of SSA program grant funds.

 •   Interviewed staff and officials at the Illinois Division of Rehabilitation Services
     (IL-DRS), IL-DDS, and the SSA Chicago Regional Office.

 •   Reviewed State policies and procedures related to personnel, medical services,
     and all other nonpersonnel costs.

 •   Evaluated and tested internal controls regarding accounting, financial reporting,
     and cash management activities.

 •   Reconciled State accounting records to the administrative costs reported by the
     IL-DDS on the State Agency Report of Obligations for SSA Disability Programs
     (SSA-4513) for Fiscal Years (FY) 2004 through 2005.

 •   Examined specific administrative expenditures (personnel, medical services, and all
     other nonpersonnel costs) incurred and claimed by the IL-DDS for FYs 2004 and
     2005 on the SSA-4513. We used statistical sampling to select expenditures to test
     for support of the medical service and all other nonpersonnel costs.

 •   Examined the indirect costs claimed by the IL-DDS for FYs 2004 through 2005.

 •   Compared the amount of SSA funds drawn for support of program operations to
     the expenditures reported on the SSA-4513.

 •   Determined whether selected funds from cancelled warrants were properly returned
     to SSA.

 •   Determined if unliquidated obligations were properly supported.

 •   Reviewed IL-DDS general security controls related to physical security and
     continuity of operations.



                                              B-1
We determined that the data provided by IL-DRS and IL-DDS used in our audit was
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling it with the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed work at the IL-DRS, IL-DDS, the Kansas City, Missouri and Chicago,
Illinois Offices of Audit. We conducted fieldwork from June 2006 through November
2006. The audit was conducted in accordance with generally accepted government
auditing standards.

METHODOLOGY

SAMPLING METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513 (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained a data extract of all costs and the associated invoices for
FYs 2004 through 2005 for use in statistical sampling. This was obtained from the
accounting systems used in the preparation of the SSA-4513.

Personnel Costs

We randomly selected 1 pay period in the most recent year under review. We then
selected a random sample of 50 regular employees for review and testing of the payroll
records.

For medical consultant costs, we also selected 1 pay period in the most recent year
under review. We then selected a random sample of 50 medical consultants for review
and testing of the payroll records.

Medical Costs

We sampled 100 items (50 items from each FY) using a stratified random sample of
medical cost based on the proportion of medical evidence of record and consultative
examination costs to the total medical costs claimed.




                                            B-2
Indirect Costs

IL-DDS indirect costs are computed by applying a federally approved rate to a cost
base. 1 This methodology was approved by the Department of Health and Human
Services, which is the Federal agency designated to negotiate and approve the indirect
cost rate. As of September 30, 2006, the IL-DDS claimed indirect costs of
$2,345,891 for FY 2004 and $2,459,681 for FY 2005. We reviewed the FY 2004 and
2005 indirect cost calculations to ensure the correct rate was applied.

All Other Nonpersonnel Costs

We sampled 100 items (50 expenditures from each FY) using a stratified random
sample. The random sample was based on the proportion of costs in each of the cost
categories to the total costs claimed.




1
    Direct salaries and wages including all fringe benefits.


                                                        B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY
 MEMORANDUM


 Date:     April 17, 2007                                                         Refer To: S2D5G2

 To:       Inspector General

 From:     Regional Commissioner
           Chicago

Subject:   Draft Report of Administrative Costs Claimed by the Illinois Disability Determination Services
           (Your Memorandum Dated March 23, 2007) -- REPLY


           As requested, we have attached comments concerning the recommendations of the subject
           report (A-05-06-16118). We believe, as the draft report states, that the DDS has generally
           effective controls over the accounting and reporting of administrative costs and the costs it
           claims are allowable and properly allocated.

           We appreciate the challenges and difficulties the audit team faced during this audit and want to
           acknowledge the efforts of your staff in conducting such a comprehensive review of DDS
           activities. We especially appreciated the open discussion of issues/findings both during the
           audit review and at the formal exit conference.

           Questions about this memorandum may be directed to Jim Jamison, Financial Management
           Team Leader, at 312-575-4212.



                                                          /s/
                                                      James F. Martin




           Attachment

           cc:   Deputy Commissioner for Operations
                 Deputy Commissioner for Budget, Finance, and Management




                                                         C-1
                                                                                 Attachment


Administrative Costs Claimed by the Illinois Disability Determination Services (A-
05-06-16118)


Recommendation 1 -- SSA should reduce DDS funding authorizations when they are no
longer needed to make disability determinations. Rescinding excess funding authorization
decreases the risk of funds being spent on expenditures not related to the proper FY.

Comment -- We concur with this finding. As indicated in the report, on January 11, 2007, we
reduced the IL-DDS’ funding authority to the appropriate amounts for the periods in question.


Recommendation 2 – SSA should work with the IL-DDS to ensure the lease on the
unoccupied space is expeditiously terminated.

Comment -- We concur with this non-monetary audit finding which refers to space the DDS
fiscal unit has vacated and that the DDS had initially intended to use for training purposes.
However, as stated in the audit report, the lease on the unoccupied space is shared with
another State agency and cannot be terminated until this other agency vacates the space. The
DDS has initiated action to relocate the other State agency to new space. We now expect this
action will be completed, and the current lease terminated, by the end of the State FY, which is
June 30, 2007.




                                              C-1
                        Appendix D

State Agency Comments
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

      Mark Bailey, Director, Chicago Audit Division, (816) 936-5591

      Ken Bennett, Information Technology Specialist, (816) 936-5593

Acknowledgments

In addition to those named above:

       Doug Kelly, Auditor-in-Charge

      Sherman Doss, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-06-16118.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
